•'G!G!NAL
;

Supreme Court. U.S.
FILED

V .■

p

0

No.

-r

OCT 1 5 2020

,L

OFFICE OF THE CLERK

In The
SUPREME COURT OF THE UNITED STATES

In re. Nira Woods, Dr.
Petitioner,

ON PETITION FOR A WRIT OF MANDAMUS AND
PROHIBITION, or a Writ of Certiorari To The
The Superior Court of California

PETITION FOR A WRIT OF MANDAMUS AND PROHIBITION,
OR A WRIT OF CERTIORARI

Nira Woods, Dr.
2550 Pacific Cost Hwy., Spc. 68
Torrance, CA 90505
T: 424-250-9961
Email: niraschwartzwoods@yahoo.com

received

OCT 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT iio*

i

QUESTIONYS) PRESENTED
Three Orders by three Judges, at three different Superior Court branches
in California, without hearing Petitioner (on 09/28/20, 09/30/20,
10/30/20), agree/believe that preserving the employment status of an
assigned Court Reporter, over the Petitioner’s Constitutional Rights
“would farther the interest of justice”; and therefore ruled/ordered:
“The [Superior] Court recuses itself on this case”. [Bold Highlight]
And without Qualification, in bias, in abuse of discretion, threw
Petitioner out from entire Superior Court of California: the Court
Reporter is defendant (20) in Petitioner’s Superior Court Case:
20TRCV00564;

Question 1:
Were Petitioner’s Constitutional Rights violated (including the 1st, 5th,
and 14th Amendment(s))?

Question 2:
“The [Superior] Court recuses itself on this case”, while not
transferring/reassign the case to the California Federal Court, is in
violation of Petitioner’s Constitutional Rights?

ii

LIST OF PARTIES
At the California Superior Court Case No.: 20TRCV00564
All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
“ BALDWIN RENEE- Defendant;
BORDEN KIM - Defendant;
CHANDLER'S SAND & GRAVEL INC.- Defendant;
DEPARTMENT OF HOUSING AND COMMUNITY
DEVELOPEMENT- Defendant;
DOSE 20 - 50 - Defendant;
DOWDALL LAW OFFICES A.P.C. -Defendant;
DOWDALL TERRYR. - Defendant;
EIFLER ROBIN G.- Defendant;
FAMIGHETTI ROBIN- Defendant;
FLAKER TRACIE- Defendant;
GALINDO EDWIN G. - Defendant;
GUZMAN MANUAL- Defendant;
GUZMAN VICTOR - Defendant;
MEGEFF JON- Defendant;
MIYAKE KEN - Defendant;
N & K COMMERCIAL PROPERTY INC. - Defendant;
THE MANAGEMENT OF SKYLINE MOBILE PARK- Defendant;
THOMPSON-BELL DELLA- Attorney for Defendant;
TORRANCE POLICE DEPARTMENT; & DEPARTMENT OF
MENTAL HEALTH/MENTAL- Defendant;
WAY TSAE- Defendant;
WEINERT RICHARD- Defendant;”

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED.............

1

PARTIES TO THE PROCEEDINGS

n

TABLE OF CONTENTS

m

INDEX TO APPENDICES

m

OPINION BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED... 2
STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

5

CONCLUSION

7

CERTIFICATE OF COMPLIANCE

7

PROOF OF SERVICE

14

INDEX TO APPENDICES
APPENDIX A - Order dated 09/28/2020; California Superior Court
Torrance Courthouse; Ordered “The [Superior] Court recuses itself on
this case”

8

APPENDIX B - Order dated 09/30/2020; California Superior Court
Stanley Mosk Courthouse; Assigned the case back to California Superior
Court in contradiction / violation of order dated 09/28/2020

9

APPENDIX C - Order dated 10/08/2020; California Superior Court
Burbank Courthouse;
Strike Petitioner’s request for disqualification

10

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF MANDAMUS
Petitioner respectfully prays for a writ of certiorari as follows.

OPINIONS
The opinion of the highest state court to review the merits appears at
APPENDICES A, B, and C to the petition and is made by the Superior
Court of California; and is unpublished.

JURISDICTION
Article III of U.S. Constitution, 28 U. S. C. § 1254, §1651, Sup. Ct. Rule
20. And under 28 U. S. C. § 1257(a).
The dates on which the Superior Court of California decided my case are:
On 09/28/2020 at Torrance Courthouse;
On 09/30/2020 at Stanley Mosk Courthouse; and
On 10/08/2020 at Burbank Courthouse.
A copy of these Orders/decision appears at Appendices A, B, and C;

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. The 1st Amendment "petition the government for a redress of
grievances"
2. The 14th Amendment, not to deprive "any person of life, liberty, or
property, without due process of law", a legal obligation of all states.
3. The 14th Amendment, not to deprive "equal protection of the laws"
4. The 5th Amendment, Due process does require that certain procedures
be followed before any action is taken.

RELIEF SOUGHT
Petitioner prayer for reversal; and have Petitioner back as a Plaintiff to
California

Superior

Court

at

Torrance

Courthouse,

Case

20TRCV00564, and if possible with same Hon. Judge Tanaka;
Or other relief as this Hon. Court deems appropriate.

No.:

3

FACTS / STATEMENT OF THE CASE
Petitioner a 74 years Old person with medical issues that cannot drive
long distances to be followed by Court appearance, [see, Complaint
pars., 26.b; 26.h.; 51.; 75; see case docket dated 10/07/2020 EXHIBIT
12], a non-attorney, English language is not Petitioner’s primary, that
lives on SS income at a Mobile Home Park.

1. On 08/11/2020. in the Superior Court of California, Torrance
Courthouse, case TRCV00564, the Complaint was filed under Equitable
Relief / State Laws / Federal Laws and Federal Constitution: (“the Case”)

2. On 09/28/2020 - a Minute Order; Appendix A, and without hearing
Petitioner, in bias, in abuse of discretion, without Qualification the Hon.
Judge Tanaka disqualified himself and also Ordered/ruled:
“The [Superior] Court recuses itself on this case.” (Underline, [], added);
throws Petitioner out the entire California Superior Courts; violating
Petitioner’s Constitutional Rights [including 1st, 5th, 14th Amendment(s)]
to our Federal Constitution, as stated on above p. 2;

3. On 09/30/2020 - a Minute Order; Appendix B, and without hearing
Petitioner, in bias, in abuse of discretion, at the Stanley Mosk Courthouse
of California Superior Court, the Hon. Judge Jessner overrides/conflicts
the order dated 09/28/2020 which she herself directed, to have without
qualifications, “The [Superior! Court recuses itself on this case.”, and in
a Surprise move reassigned the Petitioner’s Case to California Superior
Court at Burbank Courthouse: as far and on the border of Los Angeles

4

County; instead of transferring/reassign the case to Federal Court. In
violation of Petitioner’s Federal Constitution rights [1st, 5th, 14th
Amendment(s)], as stated on above p. 2;

4. On 10/02/2020 Petitioner filed in Case 20TRCV00564 an Objection
to the Minute Order dated 9-30-20; and a Request for Relief. No response,
Petitioner’s Federal Constitution Rights are still violated;

5. On 10/05/2020 Petitioner’s Ex Parte Application for Order to
Disqualify the Hon. Superior Court Judge Stewart, in which the case was
reassigned to him, at Burbank Courthouse based on CCP 170.1, 170.5;
an effort to have a Judge perform Due Process, and give Petitioner a day
in court; and will assign the case back to Torrance Courthouse;

6. On 10/06/2020 Petitioner send a Request Relief letter-from-USA
Supreme court Hon. Justice John G. Roberts, Jr.; Petitioner approached the
Hon. Justice because she believed her rights under the Federal
Constitutions were violated and the California Superior Court did not
care for her Objection nor for the Federal Constitution. The letter dated
10/06/2020 was filed with the California Superior Court on 10/09/2020;

7. On 10/08/2020 additional and a second Ex Parte Application, under
State/Federal Laws and Federal Constitution for Order to Disqualify
Superior Court Judge(s) Jessner based on CCP 170.1 and 170.5 and
Request to Reassign Case Back to Superior Court Located at Torrance
Courthouse, Ex Parte addressed by paper Format return receipt

5

requested to the Hon. Judge Jessner; the hearing day was put on the
docket and then removed immediately same day on 10/08/2020;
8. On 10/08/2020, Order; Appendix C, and without hearing Petitioner,
at the Burbank Courthouse of California Superior Court, the Hon. Judge
Stewart in bias and abuse of discretion, had Stroked the Petitioner’s
STATEMENT of Disqualification, one day ahead of the hearing day
scheduled and was on the case Docket; and by doing so gave Hon. Judge
Jessner a release from responding to the ExParte addressed to her;
Judge’s Stewart Opinion to justify the said Stroked was untimely
filing: such is contradicted by the time line provide above; also Judge
Stewart justified the said Stroked because Petitioner’s STATEMENT of
Disqualification is a self-conflict arguments. Petitioner has no Selfconflict argument: Order dated 09/28/2020 ruled “The fSuperior! Court
recuses itself on this case.”:

and throws in violation of Petitioner’s

Constitutional Rights the Case out of any Superior Court in California;
while Order dated 09/30/2020, conflicts Order 09/28/2020, by reassign the
case to Burbank Courthouse; and it was not Petitioner that made these
conflicting orders;
REASONS FOR GRANTING THE PETITION
1. Adequate Relief Cannot Be Obtained In Any Other Forum or From
Any Other Court
a. Petitioner’s Constitutional rights: 1st, 5th, and 14th, Amendment(s)
were violated; while Petitioner has earned the right to a day in
Torrance Courthouse, by living and building Torrance for over 30

6

years. And while was approved, since 08/11/2020 to be Plaintiff in this
Superior Court; and case 20TRCV564 docket shows that.
b. The three Orders already produced in State Court are a mirror image
of the State Courts’ Opinions, of wishing our Federal Constitution out
of their Court rooms, to be free to have “believes” that are in violation
to our Federal Constitution.
c. Mandamus appropriate where petitioner "lack adequate alternative
means to obtain the relief they seek", Mallard v. U.S. Dist. Court for
S. Dist. of Iowa, 490 U.S. 296, 309, (1989). And living on SS income,
with a fee waiver is not adequate means to obtain the relief Petitioner
seeks; Petitioner is 74 years old and lives on SS, with medical issues;
and the Court Reported is having a job and income; she was assigned
to Torrance Courthouse, and very young, and can be reassigned to
another court house;
2. Exceptional Circumstances
The Hon. Judges has exercised their discretions, without any
hearing to Petitioner medical issues and unfair to ask Petitioner to drive
at old age such long distances to Burbank Courthouse, and then to plead
her case; constitutes as exceptional circumstance, Roche, supra 27.
Instances of "clear abuse of discretion," Bankers Life & Casualty Co. v.
Holland, 346 U.S. 379, 383, (1953), or conduct amounting to "usurpation
of [the judicial] power," De Beers Consolidated Mines, Ltd. v. United
States, 325 U.S. 212, 217, (1945), to be entitled to issuance of the writ",
Mallard v. US. Dist. Court for S. Dist. of Jo wa, 490 U.S. 296, 309, (1989)
("Mallard').

7

3. The Writ Will Be In Aid of State Court at any level:
Because it will provide the missing Superior Courts’ procedures to take
place in such cases; and eventually will save the Public Money, time and
hardship;
CONCLUSION
For the foregoing reasons, Petitioner respectfully asks this Hon.
Court to grant the petition for a writ of mandamus and prohibition, or,
in the alternative, the petition for a writ of certiorari

Respectfully submitted,
Date: 10/13/2020

Nira Woods, Dr. Petitioner

CERTIFICATE OF COMPLIANCE
Pursuant to rule 8.204(c) of the California Rules of Court, I hereby
certify that this brief contains__1881

words, including footnotes.

In making this certification, I have relied on the word count of the
computer program used to prepare the brief.
Respectfully submitted on 10/13/2020

Petitioner Nira Woods, Dr.

